LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 14, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 20-915: UNICOLORS, INC. V. H&M HENNES & MAURITZ, LP
Dear Sir or Madam:

I hereby certify that at the request of counsel for the Petitioner, on October 14,
2021, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondent:
RESPONDENT:
Peter K. Stris
Stris and Maher LLP
777 S. Figueroa Street
Suite 3850
Los Angeles, CA 90017
213-995-6800
pstris@stris.com
This service was effected by depositing three copies of the Reply Brief for
Petitioner in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 14th day of October 2021.

